 Additional Copies

 To obtain additional copies of this report, visit the Inspector General of the
 Department of Defense, Home Page at www.dodig.osd.mil/audit/reports or
 contact the Secondary Reports Distribution Unit of the Audit Followup and
 Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms
AAA                  Army Audit Agency
AFAA                 Air Force Audit Agency
AICPA                American Institute of Certified Public Accountants
DCAA                 Defense Contract Audit Agency
DFAS                 Defense Finance and Accounting Service
GAO                  General Accounting Office
IG                   Inspector General
IIA                  Institute of Internal Auditors
NAS                  Naval Audit Service
OMB                  Office of Management and Budget
DISTRIBUTION:
Director, Defense Commissary Agency
Internal Review Office
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Internal Review Office
Director, Defense Finance and Accounting Service
Director, Internal Review
Director, Defense Logistics Agency
Director, Internal Review
Director, Missile Defense Agency
Internal Review Office
Auditor General, Department of the Army
Auditor General, Department of the Navy
Auditor General, Department of the Air Force
Inspector General, Defense Information Systems Agency
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency
Inspector General, National Reconnaissance Office
Inspector General, National Security Agency
Inspector General, Special Operations Command
Chief, National Guard Bureau
Internal Review Office
Chief of Naval Education and Training
Headquarters, U.S. Marine Corps Nonappropriated Fund Audit Service
Director, Audits Division, Army and Air Force Exchange Service
         Office of the Inspector General of the Department of Defense
Report No. D-2002-6-006                                                     May 6, 2002
  (Project No. D2001-OA-0122)

                 Summary of Risk Assessment Methodologies

                                 Executive Summary

Introduction. This report provides the DoD audit community with information relating
to risk assessment methodologies. The primary objective of an audit risk assessment is
to provide its users with the assurance that audit resources are focused on those areas
needing greatest attention and will provide the best value to the audit client. Audit risk
assessments happen both on an overall (macro) and on a specific project (micro) level.
DoD audit organizations rely on the results of risk assessment to help them manage the
Department-wide audit resources of approximately 6,600 auditors. These auditors
provide audit coverage for an organization that has an estimated annual budget of
$329 billion in FY 2002. To accomplish their audit missions, auditors conduct risk
assessments by following established standards, but also by developing additional
procedures necessary for specific projects.

Government and professional organizations provide standards and guidance on the
requirements for completing risk assessments. The General Accounting Office issues
Government Auditing Standards, which prescribe standards of fieldwork for both
financial and performance audits and require an assessment of control risk, internal or
management controls, and adequate audit planning. The Office of Management and
Budget provides risk assessment guidance in Circular No. A-123 “Management
Accountability and Control” and in Circular No. A-133 “Audits of States, Local
Governments, and Non-Profit Organizations.” The American Institute of Certified
Public Accountants Auditing Standards Board issues the Codification of Statements on
Auditing Standards. The Statement on Auditing Standards requires adherence to the
generally accepted auditing standards, which includes adequate planning and a sufficient
understanding of internal controls for project planning under the Standards for Field
Work.

Objectives. The objective of the review was to identify procedures for assessing risk
when conducting DoD audits and to provide the DoD audit community with a resource of
useful procedures. We included DoD audit activities and other government and private
audit organization in our review.

Results. DoD audit organizations consider risk assessment results in assigning the audit
resources to the functional areas identified as high risk. DoD audit organizations also
respond to changing audit needs and changes in high-risk areas. The methodologies used
by audit organizations varied from formal instructions for identifying high-risk areas to
informal procedures such as documenting the result of an audit planning meeting with
organizational managers. In each case, either through formal or informal methodologies,
the objective was the same--to identify where audit resources can be used most
effectively.



                                             i
Some audit organizations have also developed or used standard risk assessment
procedures for specific types of audits such as, information system audits, contract
audits, and audits required under the Single Audit Act or the Chief Financial Officers
Act. Many of these procedures are commercially available or available through the
Internet. Other types of audits do not lend themselves to standard risk assessment
methodologies. However, the concepts can often be tailored to these audits as well.




                                            ii
Table of Contents

Executive Summary                                         i


Introduction
     Background                                          1
     Objectives                                          3

Results
     Risk Assessment Methodologies                       4

Appendixes
     A.   Project Process                                12
     B.   Description of Risk Assessment Factors         13
     C.   Risk Assessment Resources and Contact Points   14
     D.   Example of Risk Assessment Tool                16
     E.   Report Distribution                            17
Background
    Significance of Risk Assessment Procedures in DoD Auditing. Risk
    assessment procedures are critical to DoD audit organizations in identifying and
    planning audit work that covers the varied and worldwide activities of the
    Department. Risk assessment procedures within DoD audit organizations with
    guidance provided by the General Accounting Office, the Office of Management
    and Budget, and other organizations, help provide audit focus and allow for
    proper planning. Risk assessments are essential to ensure that audit resources are
    effectively and efficiently used.

    The DoD annual budget for FY 2002 is approximately $329 billion. DoD is the
    Nation’s largest employer, with about 1.4 million active duty service members,
    1.28 million volunteer guard and reserve members, and 672,000 civilian
    employees. The DoD also operates the largest acquisition system generating
    15.8 million different acquisitions valued at more than $175 billion in FY 2001.
    The Department supports more than 600 fixed facilities worldwide including
    250 major installations. DoD trains and equips the Armed Forces--the Army,
    Navy, and Air Force to perform warfighting, peacekeeping and
    humanitarian/disaster assistance tasks. Every year, DoD pays 5.5 million
    military and civilian members by issuing more than 135 million payroll payments
    valued at approximately $114 billion. Additionally, DoD disburses
    approximately $150 billion annually making more than 11.1 million contractor or
    vendor payments. This considerable activity requires an active role by the
    Department’s audit organizations at all levels; however, to provide the audit
    support required for the activity, there are only about 6,600 auditors throughout
    the Department.

    The Inspector General (IG) of the Department of Defense, with 525 auditors,
    serves as an independent and objective official in the Department of Defense who
    is responsible for conducting, supervising, monitoring, and initiating audits.
    Together with the Defense Contract Audit Agency (DCAA), the Army Audit
    Agency (AAA), the Naval Audit Service (NAS), and the Air Force Audit Agency
    (AFAA), we provide leadership and coordination and we recommend policies
    designed to promote economy, efficiency, and effectiveness in the administration
    of DoD programs and operations. We also seek to prevent and detect fraud and
    abuse in these programs. In addition, various Defense agencies and local
    commands have approximately 1,140 internal auditors to support their mission.

    The DCAA with approximately 3,450 auditors is responsible for performing all
    contract audits for the Department of Defense and for providing accounting and
    financial advisory services regarding contracts to all DoD Components
    responsible for procurement and contract administration. DCAA provides audit
    cognizance for about 9,900 DoD contractors. In 2001, DCAA audited
    8,874 pricing proposals with a total value of $123.5 billion and conducted other
    audits valued at $94.9 billion. DCAA provided net taxpayer savings of
    $3.2 billion.



                                         1
The AAA, employing 541 auditors, provided audit coverage for an estimated
$70.8 billion annual budget in FY 2001. The NAS with 259 auditors is
responsible for internal audit of the $83 billion program of the Navy. The AFAA
employing 713 auditors provides all levels of Air Force management with audit
services valued at approximately $71.2 billion in FY 2001. However, over the
last several years, DoD audit organizations have had significant reductions in
staff. These reductions in staff require agencies to reassess priorities and
determine where they can best use their valuable resources. Procedures used to
address overall audit planning are referred to as macro risk assessments and they
are designed to help audit organizations identify and reassess high-risk audit
areas.

        General Accounting Office Guidance. The General Accounting Office
(GAO) issues Government Auditing Standards in what is commonly known as the
Yellow Book. The Yellow Book prescribes standards of fieldwork for both
financial and performance audits. These standards include the assessment of
control risk and internal or management controls. These fieldwork standards
relate to specific audits and require assessments of functional areas such as
computerized information systems, safeguarding of assets, and the compliance
with laws and regulations. Procedures used to address these standards are
referred to as micro or specific audit risk assessment procedures.

        Also, since 1990, the GAO has periodically reported on government
operations that it identifies as high-risk. In January 2001, GAO identified
Strategic Human Capital Management and Information Security as Government-
wide high-risk areas. GAO also identified the following six high-risk areas
specifically for DoD.

       •   Systems Modernization,

       •   Financial Management,

       •   Infrastructure Management,

       •   Inventory Management,

       •   Weapon Systems Acquisition, and

       •   Contract Management.

DoD audit organizations consider these high-risk areas for macro or overall audit
planning and may include them as functional audit areas in an organizational audit
or strategic plan.

        Office of Management and Budget Guidance. The Office of
Management and Budget (OMB) provides risk assessment guidance in the
Circular No. A-123 “Management Accountability and Control” and in Circular
No. A-133 “Audits of States, Local Governments, and Non-Profit
Organizations.” OMB Circular A-123 requires agencies to develop strategic
plans, set performance goals, and report annually on performance compared to

                                    2
     goals. Management controls are an integral part of the entire cycle of planning,
     budgeting, management, accounting, and auditing. Audit organizations can use
     these strategic plans and related management controls as a basis for audit
     planning. Auditors then provide information to management by conducting
     assessments of the management controls and making recommendations to assist in
     effectively meeting the plans and goals. OMB Circular A-133 sets forth
     standards for obtaining consistency and uniformity among Federal agencies for
     the audits of States, local governments, and non-profit organizations expending
     Federal awards. OMB Circular A-133 further provides audit requirements and
     the risk-based audit approach to determine which Federal programs are major
     programs.

Objectives
     The objective of the review was to identify procedures for assessing risk when
     conducting DoD audits and to provide the DoD audit community with a resource
     of useful procedures. We focused on both overall audit planning procedures and
     specific risk assessment procedures used to address audit objectives. We included
     DoD audit activities and other government and private audit organizations in our
     review.




                                         3
                 Risk Assessment Methodologies
                 Audit organizations, including DoD audit organizations, use different risk
                 assessment methodologies when planning and conducting audits. These
                 methodologies have either been self-developed or bought commercially.
                 As a result, DoD audit organizations use a wide array of risk-based audit
                 planning methodologies and risk assessment tools for conducting audits.
                 There is not one method that would work for all audit activities. Instead,
                 risk assessments must reflect the audit environment and activities audited.

Risk Assessments and Audit Planning
        The DoD audit organizations and other governmental audit organizations use
        various formal and informal methods to assess risk during the audit planning
        phase. We defined formal risk assessment procedures as those procedures that
        are required by agency regulations or instructions. Informal risk procedures
        represent those procedures that, although not required, were developed and used
        by audit teams within the organization.

        During audit planning, organizations consider several factors to help them
        identify auditable areas. These risk-based factors make it easier for agencies to
        identify areas needing greater audit attention. Table 1 below identifies some of
        the more common factors used to measure risk. The table also indicates where
        organizations use the corresponding risk factor to document the overall level of
        risk and allocate audit resources accordingly. A brief description of each factor is
        provided at Appendix B.

                 Table 1. Risk Factors Used by DoD Audit Organizations

Risk Assessment Factors                     AAA          NAS        AFAA         DCAA         DFAS          IG
                                                                                               IR          DoD
Audit History/Prior Coverage                   ♦            ♦           ♦           ♦          ♦             ♦
Degree of Decentralization                                                                     ♦
Dollar Value/Resources Used                    ♦            ♦           ♦           ♦          ♦             ♦
Employee Competence                                                                            ♦
Employee Turnover/Growth                       ♦                                               ♦
Fraud, Waste & Abuse                           ♦            ♦           ♦           ♦          ♦             ♦
Internal/Management Controls                   ♦            ♦           ♦           ♦          ♦             ♦
Mission/Goals                                  ♦            ♦           ♦                                    ♦
Organizational Changes                         ♦                        ♦                        ♦
Outside Concern/Sensitivity                                             ♦                                    ♦
Public Law                                     ♦            ♦           ♦           ♦                        ♦
Requested/Suggested Audits                     ♦            ♦           ♦           ♦            ♦           ♦
KEY: AAA – Army Audit Agency, NAS – Naval Audit Service, AFAA – Air Force Audit Agency, DCAA – Defense Contract
Audit Agency, DFAS-IR – Defense Finance and Accounting Service-Internal Review; IG DoD – Inspector General of the
Department of Defense, Assistant IG for Auditing



                                                        4
Documentation indicated that the risk assessment factors are frequently used;
however, where we did not indicate use by a specific organization does not mean
the organization does not consider these factors. The purpose of the table is to
illustrate that macro risk assessment procedures are varied and should be designed
to meet the needs of the audit organization. Certainly, many more factors exist
that can affect an organization’s audit resources. Audit organizations can use
these commonly known factors, but they must also anticipate future events to
properly plan for high-risk audit issues. It is important for an audit organization
to have established macro risk assessment procedures to assist them in allocating
audit resources. The following discussion provides information and examples
about risk assessment methodologies used by audit organizations.

        Army Audit Agency. The AAA assesses risks and reviews internal
controls as part of most audit projects. Risk assessment methods are usually
incorporated into the overall audit planning function. AAA uses many informal
risk assessment methods to identify high-risk audit areas. For example, AAA
managers would consider a significant reduction in staffing in a particular area as
a high-risk indicator and plan audit coverage accordingly. The AAA relies on its
senior audit managers to assess functional areas and determine the high-risk areas
needing audit coverage. Therefore, AAA managers rate known risk factors
associated with particular issues to accomplish macro audit planning.

        Naval Audit Service. The NAS has also used various risk assessment
methods and selected risk factors to help develop an overall audit plan. Recently,
the NAS has reorganized its functional audit areas and is currently working to
develop a framework for determining the allocation of audit resources to the
highest risk areas. The NAS has contracted with KPMG, LLP to conduct a
macro risk assessment project. The risk assessment project will identify and
prioritize auditable entities within the Navy.

        Air Force Audit Agency. The AFAA has developed and incorporated
formal audit risk assessment procedures into their audit instructions. The
instructions include planning documents with risk criteria sections used in
planning audit projects. The planning document outlines the procedures to be
followed that would rate the audit risk by assigning a score to critical factors.
Some critical factors rated by AFAA include dollar value or resources used, the
effectiveness of internal or management controls, audits suggested or requested
by management, the level of concern or sensitivity outside the organization,
audits required by public law, and recent significant organizational changes.
AFAA uses this formal audit planning document and risk assessment to help
determine their audit plan.

        Defense Contract Audit Agency. The Defense Contract Audit Agency
(DCAA) uses a formal risk assessment method to rank and determine programs
requiring audit coverage. DCAA has developed and established many risk
assessment worksheets for use during audit planning. The worksheets were
developed to assess risk and document the results relating to a specific type of
DCAA audit. The worksheets were also designed to address the risk assessment
requirements outlined in the DCAA Contract Audit Manual. For example, at



                                     5
major contractors, those with more than $80 million in auditable costs, DCAA
uses separate audit assignments to review and evaluate each significant contractor
accounting and management system and their related controls. The resulting
control risk assessments are documented using the DCAA Internal Controls Audit
Planning Summary process, which provides a summary of control risk
assessments on the 10 major business areas. Other auditors can use the Internal
Controls Audit Planning Summary process to understand the level of risk
associated with the contractor’s accounting and management systems as it relates
to the individual audit assignments they are working on. DCAA auditors use the
information obtained and the risk assessed to determine the extent of transaction
testing.

        In an effort to address its audit backlog with decreased staff levels, DCAA
developed a sampling initiative for audits of incurred cost contracts with an
annual maximum dollar volume of $10 million. DCAA believed that the backlog
of incurred cost audits represented a significant risk to the organization’s mission,
so they developed an audit-sampling plan to help reduce this risk. DCAA
analyzes the contractor to determine questioned costs, audit leads, risk identified
by the contracting officer, and audit experience with the contractor. If the
analysis determines that none of these factors are currently present at the
contractor, the contractor is rated as low risk and will be audited in a 3-year
cycle. However, if these factors are present, the contractor will receive a high-
risk rating and will be audited yearly.

       Although the risk assessment procedures used by DCAA are specific to
the types of audits they conduct, they provide good examples of how audit
organizations would benefit from developing and establishing guides or pro-forma
documents to help ensure that risk factors are adequately assessed.

        Defense Finance and Accounting Service (DFAS) Internal Review.
DFAS Internal Review uses a formalized risk assessment method in selecting
areas for inclusion in their audit plan. The assessment is designed to measure the
overall risk of one functional area as it relates to other functional areas. The risk
factors in the assessment methodology include: performance achievement,
financial perspective, personnel issues, system problems, and control
environment. Based on the assessment, functional areas are categorized as high,
moderate, or low risk. The rating represents the criticality or impact of the
functional unit to the overall DFAS mission.

        Inspector General of the Department of Defense, Assistant Inspector
General for Auditing. The IG DoD plans audits and evaluations based on
planning research efforts and audits required by law or requested by the
Congress. Audit planning must respond to management needs and provide
balanced coverage for the Department. Therefore, the IG DoD relies on its
senior managers to ensure that a sufficient level of research is conducted within
their assigned functional area to identify audit needs. Senior managers should:

         •    maintain an inventory of significant auditable entities for their
             functional area,

         •   coordinate with applicable DoD-wide planning groups,


                                      6
         •    coordinate with DoD managers to obtain their ideas and priorities,
             and

         •   coordinate with GAO counterparts.

        Where law, regulation, or congressional direction does not mandate the
audit topics, the IG develops its audit plan relying on risk assessment results and
in consultation with DoD managers when possible. The projects are coordinated
in the joint audit planning groups that address coverage in each major functional
area. The functional areas included Acquisition Management, Contract
Management, Finance and Accounting, and Readiness and Logistics Support.
Table 2 provides an overview of IG DoD audit workload by source for FYs 1998
through 2001. Table 2 indicates that 23 percent of our workload is self-generated
based on risk assessments. With only about 23 percent of our audit staff
resources available, we must use risk assessment procedures to identify those
projects having the highest risk in order to ensure that we are providing effective
audit coverage to areas not already mandated.

   Table 2. Inspector General of the Department of Defense, Audit
                Reports by Source FY 1998-FY 2002



                                               40%
                 32%



                                                   5%
                                   23%



                       44 Hotline Reports
                       203 Risk Assessment Reports
                       277 Management Request Reports
                       346 Congressional Reports


        In an effort to keep the Congress informed of issues affecting the
Department, the IG DoD identifies and periodically reports the DoD top 10
management challenges. Inspectors General at other executive departments also
gather similar information for the Congress and senior management. These
high-risk areas are then also used as a basis for assigning audit resources. The
IG DoD reported these issues in its semiannual report, which is available at
www.dodig.osd.mil.

       Other Audit Organizations. The State of Ohio Auditor’s Office relies on
standard audit steps to assess risk and generally performs audits based on
requirements such as OMB Circular A-133 or other statutory requirements.
Therefore, the State of Ohio Auditor's Office has found it useful to develop and



                                         7
           establish questionnaires and standard forms for use by its auditors to assess risk
           and determine audit coverage. Many of the tools used by the State of Ohio
           Auditor’s Office are available via the Internet. The Inspector General,

           Department of Health and Human Services, Office of Audit Services also has
           standard working paper forms that specifically address risk analysis. The Office
           of Audit Services at the Department of Health and Human Services makes their
           standard working papers available through the Internet.

                   Commercially Available Risk Assessment Programs. In recent years
           there has been an increase in the number of software programs developed to assist
           audit organizations in assessing risk. Public accounting firms and several other
           commercial organizations market risk assessment software programs that help
           audit organizations gather information and identify potential high-risk audit areas.
           Some software programs include:*

                       •   Audit Leverage by IAD Solutions,

                       •   Auditor Assistant by Norstan Consulting,

                       •   Auto Audit by Paisley Consulting Inc., and

                       •   Teammate (TeamRisk) by PriceWaterhouseCoopers.

                   These software programs provide organizations with an opportunity to
           perform risk assessments using automated software that will also support the
           entire audit lifecycle such as project management, automated work paper files,
           audit followup, and other functions. The software provides an organization with
           the overall framework for completing risk assessments while allowing the
           software programs to be modified to meet specific needs of the organization. It is
           important to note that this software may be especially helpful to organizations that
           do not have established risk assessment procedures or are currently reorganizing
           their audit functions to meet a change in mission. Specific details on how the
           software programs operate should be requested from the developer. We did not
           attempt to evaluate the effectiveness of these software programs. We are only
           providing this as information on resources available for organizations that are
           seeking commercially available programs to improve their audit risk assessment
           processes and procedures.

           Summary. The risk assessment resources available to auditors are numerous.
           Many organizations have been conducting risk assessment procedures using
           similar methods for years. However, their procedures may not be formally
           documented as a risk assessment procedure. When the audit requirements of an
           organization are similar or mandated by statute, it is beneficial to develop and
           maintain a library of risk assessment documents or tools to be used for audit
           planning and during future audits. The above information and examples are just a
           few of the methods used by audit organizations. Of course, there are many other
           organizations with established formal methods. Appendix C provides a listing of

*
    Reference to the listed software and the software development companies does not represent a
    recommendation or endorsement by the Inspector General of the Department of Defense.


                                                       8
     some available resources where auditors can research current trends and issues
     relating to risk assessment methodologies and links to access their web site.

Risk Assessments Tools for Audit Projects
     Micro or specific audit risk assessments occur during actual audit projects. An
     audit team is responsible for developing audit steps that will identify the high-risk
     areas specific to the objectives and goals of the particular audit project.
     Generally audit organizations develop assessment tools to assist the audit teams in
     determining the overall level of risk associated with the audit. The assessment
     tools address the objective of the audit and help to identify high-risk issues within
     a defined area or function. By determining the levels of risk associated with a
     particular audit, the audit manager is able to allocate sufficient resources to the
     high-risk areas.

     Risk assessment tools can be simple worksheets developed to rank internal
     controls or they can be complex computer software programs that identify
     vulnerabilities within a computer system or network. In either case, the
     assessment is a planned review of some portion or segment of the overall audit
     objective. It is important that risk assessments specific to the audit objective be
     completed during the survey phase and again, if necessary, early during the audit
     phase. The results of the risk assessment will then allow the auditors to focus on
     the areas needing the most attention.

     Many micro risk assessment procedures or tools are developed while completing
     audits that are similar in nature. For example, the American Institute of Certified
     Public Accountants (AICPA) has guides available to help auditors in specific
     industries such as gambling, utilities, or health care. Companies have developed
     system or network scanning software that can be commercially purchased and
     used by information system auditors. The following discussion provides some
     examples of the tools developed during audits that assist auditors in assessing
     high-risk areas on specific projects.

             Professional Organizations. The AICPA and the Institute of Internal
     Auditors (IIA) provide many useful tools to help auditors conduct risk-based audit
     procedures and apply risk assessment methods during actual audit projects. The
     AICPA provides guides related to specific industries, as previously discussed.
     For example, the AICPA resource online library contains auditing literature on
     standards, technical practice aids, reporting trends, and guidance. The library
     contains current audit risk alerts for specific industries and organizations. The
     IIA also makes resources available online. The IIA provides guidance by issuing
     practice advisories or guidelines. There are specific practice advisories
     addressing risk assessment engagement planning, guides to help link the audit
     plan to identified risks and exposures, and information about the internal audit’s
     role in the risk management process. These products are available online through
     AICPA and IIA membership subscriptions.

             General Accounting Office. The GAO provides audit organizations with
     useful audit planning information by issuing periodic executive guidance. For
     example, in a May 1998 executive guide “Information Security Management:



                                           9
    Learning From Leading Organizations,” and its November 1999 supplement, the
    GAO discusses risk assessments and risk management. In its guidance, GAO
    provides the basic elements generally included in all risk assessments. GAO
    points out how it is necessary for organizations to reassess the controls that were
    implemented to mitigate perceived risks that have changed over time. In their
    November 1999 supplemental guidance, GAO provided a Risk Assessment
    Matrix and a Risk Assessment Table that were developed as useful tools to help
    the auditor assess information system risk. The risk assessment matrix was
    developed for use during information security audits. Appendix D is a copy of
    the matrix, which provides examples of the areas of vulnerability and the
    associated risk of loss. The matrix is another example of how organizations
    would benefit from tools that assist audit teams in assessing risks associated
    within similar types of audits.

            Army Audit Agency. AAA developed risk assessment worksheets for
    computer system and installation management audit projects. For example, a
    scorecard assessment was developed to help auditors identify the technical,
    resource, and time risks associated with computer systems that would impact the
    Army’s mission during the audits of year 2000 systems. For the installation
    management functional area, an assessment worksheet was developed that
    identifies high-risk activities based on financial results reported by golf courses
    operated by the Army. By ranking the reported financial results, the audit team
    identified golf courses that may potentially have a higher level of risk of internal
    control problems or other management issues.

            Air Force Audit Agency. AFAA sought commercially developed
    software programs to help them assess network security and reliability at Air
    Force bases. These audits used scanning software to test base network security
    and make recommendations to commanders. AFAA also developed standard
    work paper guides to complete audit requirements of the Air Force Working
    Capital Fund financial statement audits. These guides provided audit teams with
    an established form of required steps or procedures necessary to complete their
    assigned audit area. Whether developed in-house or sought commercially, audit
    organizations would benefit from establishing a library of risk assessment tools
    for use by audit teams that conduct routine or similar audits.

Conclusion
    To accomplish their audit mission, DoD audit organizations must conduct risk
    assessments by following standards issued by GAO, OMB, and other professional
    auditing organizations. These standards require assessment of control risk,
    internal controls, and adequate planning. However, audit organizations also need
    to develop additional procedures for specific projects. Auditors conduct risk
    assessments almost daily as a normal aspect of the their job. When auditors
    exercise judgment, an important part of auditing, they are conducting “mini” risk
    assessments to reach a decision. Auditors weigh known factors and use past
    experiences to decide a particular issue. The issue may be as different as what
    audit site to visit or the size of an audit sample. Auditors have many formal and
    informal resources available to them to help accomplish risk assessments. Audit
    organizations would benefit from the establishment of proven methods that assist
    audit managers in aligning resources to the high-risk areas. Additionally, audit

                                         10
teams would equally benefit from documenting and maintaining proven
procedures that can be easily modified to assess risks associated with specific
projects. Worksheets, matrixes, guides, or other assessment tools should be
developed, archived, and shared by audit agencies for specific functional areas or
audit projects. By making available these proven tools, an organization will help
to ensure that the audit team is adequately assessing the project’s risk areas and
focusing on the high-risk areas instead of the low-risk areas.




                                    11
Appendix A. Project Process
   Scope and Methodology. The project objective was to provide the DoD audit
   community with information relating to risk assessment methodologies and
   identify procedures and useful resources. We gathered data from the DoD
   Service audit agencies, the Defense Contract Audit Agency, the General
   Accounting Office, and other organizations. Additional research was conducted
   through the Internet accessing professional accounting and auditing organizations.
   We did not attempt to review the adequacy of risk assessment procedures at the
   organizations we contacted. We collected overall and specific audit planning
   methods that organizations have developed and found to be useful.

   Contacts During the Project. We visited or contacted DoD audit organizations,
   other Federal audit organizations, and state and local audit organizations. Further
   details are available upon request.




                                       12
Appendix B. Description of Risk Assessment
            Factors
Audit History/Prior Coverage. No audit history, the length of time between audits, the
results of prior audits, and the management actions taken are all risk indicators that
should be measured to decide the level of risk associated with the project.

Degree of Decentralization. The degree of management or functional decentralization
will increase the risk factor rating. For example, if a disbursing function takes place at
many locations, the level of risk is higher than that of a centrally controlled disbursing
function.

Dollar Value/ Resources Used. The dollar value, volume of transactions, number of
employees involved, asset values, or use of resources will affect the risk rating.

Employee Competence. An assessment of the matching of employee’s knowledge,
skills, and abilities to the requirements for job performance will affect the level of risk
associated with a project.

Employee Turnover/Growth. High employee turnover or a large increase or decrease
in the number of employees in an area may indicate potential problems and, therefore,
affect the risk rating.

Fraud, Waste and Abuse. The vulnerability of the audit subject to fraud, waste, and
abuse. For example, those activities having assets that could be easily converted to cash
or personal use would receive a high-risk rating.

Internal/Management Controls. The project entity’s management self-evaluation
affects the risk rating. Also, past experience on management control programs of the
subject and at the potential project entity will impact the risk rating. Limited or no
controls will be rated as high risk, adequate controls or no past experience will be rated
as medium risk, and significant controls will be rated as low risk.

Mission/Goals. Audit projects that directly affect an organization’s ability to complete
its mission or accomplish its goals, such as weapon system performance, would be rated
as high risk. Projects that indirectly affect the mission or goals, such as computer or
communication networks, would be rated as medium risk. Projects that have no direct
affect, such as billeting or club operations would be rated as low risk.

Organizational Changes. Changes in an entity’s mission, structure, staffing levels, or
financial results are all indications that may affect rating level.

Outside Concern/Sensitivity. The sensitivity of the project to outside criticism or
adverse public opinion increases the risk factor rating. For example, environmental
safety is of great concern to communities around military installations.

Public Law. Projects required by public law will automatically be rated as high risk.

Requested/Suggested Audits. An audit requested or suggested by Congress or senior
management will normally receive a high-risk rating.


                                             13
Appendix C. Risk Assessment Resources and
            Contact Points
The inclusion of an organization does not represent an IG DoD recommendation,
endorsement, or agreement with the information offered by the organization. The
following list of resources is provided for information purposes only.

Organization Name           Description of Resource       Resource Web site At
Air Force Audit Agency      Web site providing               www.afaa.hq.af.mil
                            information and guidance on
                            the audit process

American Institute of       Professional organization           www.aicpa.org
Certified Public            web site providing                       or
Accountants                 accounting and auditing            www.cpa2biz.com
                            guidance and products
Army Audit Agency           Web site providing             www.hqda.army.mil/AAA
                            information and guidance on            WEB
                            the audit process

Defense Contract Audit      Web site providing general           www.dcaa.mil
Agency                      audit guidance and
                            information on the audit
                            process
General Accounting Office   Governmental guidance and            www.gao.gov
                            related resources


Institute of Internal       Professional organization           www.theiia.org
Auditors                    providing auditing and
                            consulting guidance and
                            products
Naval Audit Service         Web site providing              www.hq.navy.mil/Naval
                            information and guidance on            Audit
                            the audit process

Office of Audit Services,   Governmental agency web            www.oig.hhs.gov
Inspector General,          site providing tools for
Department of Health and    conducting audits and
Human Services              preparing reports




                                         14
Office of Management and     Governmental guidance and       www.whitehouse.gov/omb
Budget                       related resources


State of Ohio Auditor’s      State governmental agency         www.auditor.state.oh.us
Office                       providing audit information
                             for state and local
                             government audits

Additional Contact Points

The following contact points are provided for organizations that would like to obtain
additional risk assessment procedures information.

Defense Contract Audit Agency
Headquarters, Policy and Plans
Quality Assurance Division
(703) 767-2250
dcaa-pqa@dcaa.mil

Naval Audit Service
Environmental Risk Assessment
      Joan Hughes
      (202) 433-5551
Hughes.Joan@hq.navy.mil

Acquisition and Logistics Risk Assessment
       Randy Exley
       (202) 433-6260
Exley.Randy@hq.navy.mil

Macro Risk Assessment
      Vinnie D’Orazio
      (202) 433-6874
      Dorazio.Vinnie@hq.navy.mil




                                            15
Appendix D. Example of Risk Assessment Tool
The GAO developed this risk assessment matrix for information security audits. It
provides a good example of a tool that can be used on similar audits or modified as
needed.




                                           16
Appendix E. Report Distribution

Department of the Army
Auditor General, Department of the Army
Chief, National Guard Bureau
  Internal Review Office

Department of the Navy
Auditor General, Department of the Navy
Chief of Naval Education and Training
   Command Evaluation Officer
Headquarters, U. S. Marine Corps, Nonappropriated Fund Audit Service
Director, Office of Internal Audit, Navy Exchange Service Command

Department of the Air Force
Auditor General, Department of the Air Force

Defense Agencies
Director, Defense Commissary Agency
   Internal Review Office
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
   Internal Review Office
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
   Internal Review Office
Director, Missile Defense Agency
   Internal Review Office
Inspector General, Defense Information Systems Agency
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency
Inspector General, National Reconnaissance Office
Inspector General, National Security Agency
Inspector General, Special Operations Command

Other Defense Agencies
Director, Audits Division, Army and Air Force Exchange Service




                                          17
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of the
Assistant Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense, who contributed to the
report, are listed below.

Patricia A. Brannin
Wayne C. Berry
Edward A. Blair
Krista S. Gordon
